No:
IN THE
SUPREME COURT OF THE UNITED STATES
MIKEL CLOTAIRE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 29th day of September, 2020, in accordance with SUP. CT.
R. 29, copies of the (1) Petition for Writ of Certiorari, (2) Motion for Leave to Proceed
In Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying Timely
Filing, were served by third party commercial carrier for delivery within three days
upon the United States Attorney for the Southern District of Florida, 99 N.E. 4th
Street, Miami, Florida 33132-2111, and upon the Solicitor General of the United
States, Room 5614, Department of Justice, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001.
Respectfully submitted,
s/; Peter T. Patanzo
Benjamin, Aaronson, Edinger & Patanzo, PA
1700 East Las Olas Blvd., suite 202
Fort Lauderdale, Florida 33301
(954) 779-1700 phone
(954) 779-1771 fax
ppatanzo@benjaminaaronson.com
Counsel for Mr. Clotaire

